cm

No,

55 3 6
AUG 2 6 2021

IN THE
SUPREME COURT OF THE UNITED STATES

EDDIE UFWAYNF, T F.F. ~
(Your Name)

PETITIONER

vs.
SCOTT CROW

— RESPONDENTS)

ON PETITION FOR A WRIT OF CERTIORARI TO

-UMTED-STAIESjCQURTS OF APPFAT.S FOR THE TENTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI
EDDIE DEWAYNE LEE
(Your Name)
8607 SE FLOWER MOUND ROAD
(Address)
LAWTON, OKLAHOMA 73501
(City, State, Zip Code)
(580)-351-7228
(Phone Number)

__

________________ QUESTION(S)

presented---------—------

———

Should a criminal defendant that can demonstrate that he has been diligently pursuing a writ of habeas corpus
pursuant to 28 sec. 2254 be afforded Equitable Tolling of the One Year Filing Deadline when he can
demonstrate that the prison thwarted his ability to timely file his case by denying him access to the Prison Law
Library or Legal Assistances.

LIST OF PARTIES

£] All parties appear in the caption of the case on the cover page.
i 3 All parties do not appeal' in the caption of the case on the cover page

A list of

ass as fonowTe6dmg the mUrt whose jud6™»t is the subject of this

TABLE OF CONTENTS
OPINIONS BELOW....

... 1

JURISDICTION.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE......
REASONS FOR GRANTING THE WRIT.....................................
CONCLUSION......... .....

INDEX TO APPENDICES

APPENDIX A : In The United States Courts Of Appeals For The Tenth Circuit Order
APPENDIX B -In The United States District Court For The Western District Of
Oklahoma Order.
APPENDIX C

: Oklahoma Court Of Criminal Appeals, Order

APPENDIX D :Post-Conviction Order From Oklahoma County
APPENDIX E Oklahoma Court Of Criminal Appeals, Order
APPENDIX F Oklahoma County District Court Trial, Order

TAB_L.E_QEjMJTHORtT<ES CITES
CASES

PAGE
Hall v. Bellmon, 935 F.2d 1106,1110 (10'" Cir. 1991)
Haines v. Kerner, 404 U.S. 519,520-521,92 S. Ct. 594, 596, 30 L. Ed.‘2d 652 (1972)
Holland V. Florida, 560 U.S. 631, 649,130 S. Ct 2549,177 L. Ed. 2d 130 (2010)
Pace v. DiGuglielmo, 544 U.S. 408,418,125 S. Ct. 1807,161 L. Ed. 2d 669 (2005)
Yang v. Archuleta, 525 F. 3d 925,928 (2007)
-Gibson-v.-KIinger,-232-Fr3d-799r808'(10‘hCirr2000)----------------Davis v. Johnson, 158 F. 3d 806, 811 (5th Cir. 1998)
Marsh v. Soares, 223 F. 3d 1217,1220 (10th Cir. 2000)
Bounds v. Smith, (1977-430 U.S. 817,52 L. Ed 2d 72, 97 S. Ct. 1491
Braxton V. Zavaras, 614 F.3aTl54,TL6i (10,h Cir. 2010)
“

NUMBER
1
1
2
2
2
2
2
3
3
5

STATUTES AND RULES
Oklahoma Constitution Article I, § 1
1
Anti-Terrorism and Effective Death Penalty Act of 1996, Codified at 28 U.S.C. § 2244 1
Rule 11(a), Rules Governing Section 2254
5

EXHIBITS

OTHER
Dean Witter Reynolds Inc. v. Hartman, 911, P.2d. 1094,1099 (Colo. 1996)
Black v. McDaniel, 529 U.S. 473,483-484,120 S. Ct. 1595,146 L. Ed. 2d. 542 (2000)
Barefoot v. Estelle, 463 U.S. 880,893,103 S. Ct. 3383, 77 L. Ed. 2d. 1090 (1983)
Dockins v. Hines, 374 F. 3d. 935, 938 (10th Cir. 2004)

5
5
5
6

------STATEMENT OF THE CASE

CHALLENGING ANTI-TERRORISM AND EFFECTIVE DEATH PENALTY OF 1996
That this motion is prepared Pro-Se without the aid or assistance of a trained counsel of law and
ask that this court will give any syntax structural errors and liberally construe to Appellant’s Eddie
Dewayne Lee, Pro-Se Motion in accordance to Hall v. Bellmon, 935 F.2d 1106,1110 (10th Cir.
-4

1991), that is now being brought before this Honorable Court in the Interest of Justice. The Tenth
Circuit has described that it is the court’s responsibility in this regard, “'[IJfthe court can reasonably
read the pleadings to state a valid claim on which the appellant could prevail, it should do so despite the
appellant’s failure to cite proper legal authority, his confusion of various legal theories, his poor syntax and
sentence construction, or his unfamiliarity with pleading requirements. ”ld. {emphasis added bold, underlined
and quotation marks}. That the rule in Hall; as applied to prisoners is binding on the courts of this state.
Oklahoma Constitution article 1,§ 1; See also Haines v. Kerner, 404 U.S. 519, 520-521, 92 S. Ct 594, 596, 30
L.Ed. 2D 652 (1972).
That the petitioner states the following in the interest ofjustice and to correct an injustice done
under the Anti-Terrorism and Effective Death Penalty Act of 1996, codified at 28 U.S.C. § 2244 (d)
(AEDPA). As the courts was informed this is a statement of facts to explain why I couldn’t make the
one year time line to file his Habeas Corpus in The United States Western District Court In The State
Of Oklahoma. In this “Statement of Facts” It will have several exhibits to show why it was Impossible
to file my case in a timely fashion. In opinion it’s states there’s no excuse, which is Inaccurate and
Misinterpretation of the law. Under York v. Galetka, 314 F. 3d 522, 527 (10 Cir. 2003). [A] appellant
is entitled to Equitable Tolling only if he shows (1) that he has been pursuing his rights diligently, and
(2) that some extraordinary circumstance stood in his way and prevented timely filing. “Holland v.
Florida, 560 U.S. 631, 649,130 S. CL 2549,177 L. Ed. 2D 130 (2010) (quoting Pace v. DiGuglielmo,
544 U.S. 408, 418,125 S. CL 1807,161 L. Ed. 2D 669 (2005) (Internal quotation marks omitted). In
the Western District responses the court refused to hear or acknowledge how Oklahoma Department
(1)

V
Of Corrections has interfered or hindered me from filing my cases in a timely fashion. [A]n inmate bears a strong burde
1 show specific facts to support his claim of extraordinary circumstances and due diligence. “Yang v. Archulets, 525 F. 3d
—-.25, 928-(2007)^(citations omitted). Gibson~v.-Klmgerr-232-F. 3d 799, 808 (10 Cir. -2G0Q)vA^3ppeliantseeking Equitable
tiling mush show “(1) that circumstance stood in his way and prevented timely filing. “Holland v. Florida, 560
.S. 631, 649,130 S. Ct 2549,177 L. Ed. 2D 130 (2010) (quotations omitted). A appellant must show specific facts to
ipport a claim of extraordinary circumstance, and due diligence, Yang v. Archulete, 525 F. 3d 925, 928 (10th Cir. 2008).
Extraordinary circumstances that may that may warrant eguitable tolling include a appellant’s actual innocence, such as
here an adversary’s misconduct prevents timely filing or where the petitioner actively pursues remedies but files a defective
eading within the limitation period. Gibson, 232 F.3d at 808. Likewise an attorney’s misconduct or error, if egregious, may
eate a qualifying extraordinary circumstance. Holland, 560 U.S. At 651. David v. Johnson, 158 F. 3d 806, 811 (5th Cir.
198). A petitioner is entitled to Equitable Tolling “only if he shows (1) that he has pursuing his rights diligently, and (2) the
me extraordinary circumstance stood in his way and prevented timely filing. “Holland, 560 U.S. At 649 (internal quotatiot
arks and citation omitted); see also Marsh v. Soares, 223 F. 3d 1217,1220 (10th Cir. 2000); Miller, 141, F.3dAt 978. A
opellant’s burden in making this demonstration is a heavy one; a court will apply Equitable Tolling only if a appellant is
tie to show specific facts to support his claim of extraordinary circumstances and due diligence. Yang v. Archuleta, 525 F.,
25, 928 (10th Cir. 2008) (internal quotation marks and citation omitted). In Bounds v. Smith, (1977-430 U.S. 817, 52 L. E
172, 97 S. Ct 1491, the United States Supreme held that the fundamental federal constitutional right of access to the court
quired prison authorities to assist inmates in the preparation and filing of meaningful legal papers by providing the inmate.
ith adequate Law Libraries or Adequate Assistance from persons trained in the law. In 1990,22 inmates of various prisons
aerated by the Arizona Department Of Corrections filed a class action in the United States District Court for the District t
rizona against Arizona prison authorities. The inmates alleged that the authorities were depriving them of their
institutional right of access to the courts. Following a Bench trial, the District Court ruled that (1) the prison system failed
comply with constitutional standards with respect to access to the courts in a number of areas relating to the
iequacy and availability of Law Libraries and Legal Assistance programs; and (2) groups of inmates-prisoners in Lockjwn and illiterate or Non-English speaking inmates were particularly affected by the inadequacies of the system. The
strict Court also appointed a special master to investigate and report about appropriate relief (843 F Supp 1553).
\ereafter, the District Court adopted, without substantial change, the special master’s proposed permanent injunction, whici
12)

andated detailed changes with respect to the prison system’s Law Libraries and Legal Assistance programs (see 43 F.3d
261, Appendix A).
The United States Court OfAppeals For The Ninth Circuit refused to grant the prison authorities
2plication for a stay of the injunction, but the Supreme Court granted such a stay pending the filing and disposition of a
-tition for a writ<pg. 607>of certiorari (511 U.S. 1066,128 L. Ed 2d 360,114 S. Ct 1638).On the merits of the authorities
opeals, the court of appeals affirmed the terms of the injunction with minor exceptions (43 F. 3d 1261). On certiorari, the
upreme Court reversed and remanded. In an opinion by Scalia, J., joined by Rehnquist, Ch. J, and O’Connor, Kennedy,
id Thomas, JJ., and joined as to holding 3 below by Souter, Ginsburg, and Breyer, JJ., it was held that (1) an inmate whc
' a federal court suit, alleged a violation of Bounds v. Smith had found actual injury pursuant to the federal constitutional
octrine of standing; (2) the District Court’s Injunctive Order was improper, where (a) after the trial, the District Court had
<und actual injury on the part of only one plaintiff, who was illiterate, and (b) the inadequacy that caused the actual injury.
e named plaintiff was not widespread enough to justify system wide relief and (3) the District Court’s injunctive order also
as improper on the ground that the District Court had failed to accord adequate deference to the judgment of the prison
ithorities. Thomas, J. concurring expressed the view that (1) there was no basis in constitutional text, precedent, history, oi
adition for the conclusion in Bound v. Smith that the constitutional right of access to the courts imposed affirmative
oligations on the states to finance and support prisoner litigation; and (2) for the last half century, the federal judiciary has
zen exercising equitable powers and issuing structural decrees entirely out of line with its constitutional mandate, Souter, J
ined by Ginsberg and Breyer, JJ.,concurring in part, dissenting in part, and concurring in the judgment, expressed the vw
at demise of the claims by prisoners in lock-down and Non-English speaking inmates in the case at hand should have been
pressed as a failure of proof on the merits; (2) systemic relief was inappropriate solely because of the failure to prove that
rizona had denied court access to illiterate prisoners in every prison or many prisons; and (3) in a case not involving
bstantial, systemic deprivation of access to the courts, the requirements of Article III of the Federal Constitution normally
ould be satisfied if a prisoner demonstrated that (a) the prisoner had a claim that the prisoner would raise if the access
heme provided by the state were to indicate that the claim was actionable, and (b) such scheme was so inadequate that the
isoner could not research, consult about, file, or litigate the claim. Stevens, J., dissenting, (1) agreed that the relief
dered by the District Court was broader than necessary and that the case should be remanded, but (2) expressed the view
it (a) because most or all of the prison authorities concerns regarding the District Court’s order could have been addresse
th a simple remand, there was no need to resolve the other constitutional issues that the Supreme Court reached out to
(3)

idress, and (b) it was wrong to suggest that the District Court had denied Arizona a fair opportunity to be heard in the ca
hand. Equitable Tolling may be appropriate where “Truly Extraordinary Circumstances” prevented the plaintiff from
ling his or her claim despite diligent efforts. “Braxton v. Zavarsa, 614 F.3d 1156,1161 (10th Cir. 2010) (quoting Dean Wi
eynolds Inc, v. Hartman; 911 P 2d 1094; 1099 (Colo. 1996). From the exhibits I’m presenting it plainly states it shows th
is facility was place on Lock-Down which denied me access to the Law Library. My understanding of Bounds v. Smith,
awton Correctional Facility was to have a individual with some-type of knowledge dealing with Court’s Procedures or
ules Of Laws. Yes this facility has a General Counsel which has no contact with inmates so we are left with a Correctionc
fficer who’s the Main Supervisor of the Law Library who has no idea or knowledge dealing with court motions or case la
at we request. Having to deal with a individual who has no Knowledge or Degree with Court’s Procedures or Case Laws,
us this facility being on Lock-Down are factors that prohibited my access to the Law Library to work on my case, so that,
mid make my filing in a timely fashion.
To my understanding of Oklahoma Department of Correctional Policy OP-030115 section A; page 9-10, Institution Law
ibraries will be open a minimum of Thirty (30) hours per week, Six (6) hours per day Monday though Friday, no holidays
eekends at all medium facilities. In one of my exhibits will be a copy of Oklahoma policy which deals with access to the Lc
ibrary plus I’m sending copies of all the Lock-Down that prohibited me from being able to file my case in a timely
shion. This is a on going problem with Oklahoma Department Of Corrections. The facilities main objected is to keep
fenders from filing their cases in a timely fashions and having access to the Law Library. That should qualify me for
quitable Tolling, which in fact should allow the court to rule on my favor for a Certificate Of Appealability to process. As f,
mrts can see Appellant is Challenging Anti-Terrorism and Effective Death Penalty Act of 1996, in appellant’s appeal I w,
iow by my exhibits

that I was denied access to my legal work by the warden of the facilities I was at The Appellant, here,

'.spectfully prays upon this Honorable Court to reverse and remand with instructionfs], Section 2254(d) provides thn
ays to overcome AEDPA deference. Two appear in § 2254(d)(1), which provides that a state prisoner can
rnlify for habeas relief by showing a state court decision was (1) "contrary to" or (2) "involved an unreasonabl
oplication of"federal law that was clearly established by the Supreme Court. 28 U.S.C. §2254 (d)(1);
illiams v. Taylor, 529 U.S. 362,405 (2000); see Bell v. Cone, 535 U.S. 685, 694 (2002)(explaining the
ontrary to" and "unreasonable application" clauses each cany "independent meaning"). The third wa\
§2254(d)(2), requires a state prisoner to show that a state court decision was based on an unreasonable
(4)

ictual determination.
The Supreme Court ruling[s] that have been passed down over the last decade concerning juveniles hax

Montgomery v. Louisiana 136 S.Ct. 718; 193 L.E.d.2d 599 (2016); was the decision to make the prior two
Jlingfs] retroactive. This being the point of contention, the Western District Court seeks to dismiss the
ppellant on cursory revue due to being outside the AEDPA (l)year time frame from the new intervening
atutory change in law (January 25th 2016), Placing the one year deadline at January 25th 2017. Appellant
led his post-conviction on February 13th 2018 placing him only 13 month[s] out of time. The Oklahoma
epartment-ofCorrections 4s constantly going on statewidelock-downs, see exhibit " B . arid Appellant
as done as best he can with the limited resources at his disposal. During the end of the one year time frame
ppellant was in transition between facilities and still managed to file a Post-Conviction. In between Septemh
f2017 and April 5th of2018 Appellant was at three differentfacilities. Upon arrival at L.C.R.F. (Lawton
orrectional Rehabilitation Facility) (April 5th 2018), Appellant had to file for Mandamus relief to recieve a
isponse from the Oklahoma County District Court. See 28 U.S.C. § 2254(d)(2). Thus, “[ejach ofAEDPA's threi
rongs - contrary to clearly establishedfederal law, unreasonable application of clearly established federal law,
nd unreasonable determination of the facts - presents an independent inquiry." Budder v. Addison, 851 F.3d
047,1051 (10th Cir. 2017) cert denied, Byrd v. Budder, 138 S. Ct. 475 (2017). Federal habeas corpus is a
juard against extreme malfunctions in the state criminaljustice systems..." Harrington v. Richter, 562 U.S. 86
03(2011).
In the case at bar Judge Lewis stated in his dissent that: "[tjhis case is effectively indistinguishable from
'artinez v. State, 2019 OK CR 7, in which a majority of the Court adopted ‘what I regard as an unreasonabl
oplication of clearly establishedfederal law/ as setforth in Miller v. Alabama, 567 U.S. 460,132 S. Ct.
155,183 L.E.d.2d 407 (2012), in dealing with consecutive life-without-parole equivalent sentences." Petitione
gues that because Judge Lewis and Kuhen dissent that his claimjs] are debatable among jurist and The
ontrary to” clause
(5)

---------------- ---- ------

REASONS FOR GRANTING THE PETITION

__________ _

The reason for granting this Petition is for my Habeas Corpus to be heard in the United States Western District
Of The State Of Oklahoma, or to be granted a Certificate Of Appealability. As the courts should know I followed
every procedure which the courts ordered. Therefore in the interest of justice Petitioner, Eddie Dewayne Lee, seek
a Certificate Of Appealability so the lower court could hear my Federal Habeas Corpus Relief, and to hear it on it’s
merits.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

<?JL£±.
Date; Au9ust 25th, 2021

